                                                                                                  /I/I
                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF
                                                    ACETOE n
                                                              INVESTIGATIONS
                                                            C ~ T I ET P T T ~ A T T ~ X T C




                                             CLOSEOUT MEMORANDUM
                                                                                                   i

Case Number: I06120048                                                                         Page 1 of 1
                                                                                                    /I


                                                                                                    /I
         This investigation of three NSF awards1was opened pursuant to a pro-active review of NSF funding
         for oceanographic ship expenditures. This investigation, which included review of program,
         financial, and equipment inventory documents maintained by the university, revealed no indication
         of wrongdoing.
                                                                                                     /i
         Accordingly, this case is closed.




                                                                                                          I




                                                                                                          'I




                                                                                                           I


                                                                                                           I




                                                                                                              ll




                                                                                                               I




                                                                                                               I


                                                                                                                   I




                                                                                                                   11




NSF OIG Form 2 ( I 1/02)
